IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-1231
FEDERAL COMMUNICATIONS COMMISSION AND UNITED STATES OF AMERICA,
PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
_______________
No. 19-1241
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
_______________

ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________

MOTION FOR DIVIDED ARGUMENT
_______________

Pursuant to Rule 28.4 of the Rules of this Court, the Acting
Solicitor General, on behalf of the United States and the Federal
Communications

Commission

(FCC),

respectfully

seeks

leave

divide the oral argument for petitioners in the above cases.

to

This

Court consolidated the two cases and allotted a total of one hour
for oral argument.

We move to allocate 15 minutes of oral argument

time to the government in No. 19-1231 and 15 minutes to the

2
National Association of Broadcasters, et al., in No. 19-1241
(Industry Petitioners).

Counsel for Industry Petitioners have

authorized us to state that they agree with that allocation and
therefore join in this motion.

Granting this motion would not

require the Court to enlarge the overall time for argument.
The FCC enjoys statutory authority to regulate broadcast
licensees in the public interest.

See 47 U.S.C. 309(a).

Pursuant

to that authority, it has historically limited the number and type
of media outlets that a particular entity may own in a single
market.

In Section 202(h) of the Telecommunications Act of 1996,

Pub. L. No. 104-104, 110 Stat. 111, as amended, Congress provided
that the FCC “shall review its rules adopted pursuant to this
section and all of its ownership rules quadrennially

* * *

and

shall determine whether any of such rules are necessary in the
public interest as the result of competition. The Commission shall
repeal or modify any regulation it determines to be no longer in
the public interest.”

47 U.S.C. 303 note.

In the rulemakings at issue here, the FCC either repealed or
relaxed

various

ownership

rules

pursuant

to

Section

202(h),

including the rule prohibiting ownership of a broadcast station
and print newspaper in the same market; the rule limiting ownership
of radio and television stations in the same market; and the rule
limiting ownership of multiple television stations in a single
market.

See 19-1241 Pet. App. 64a-310a.

The FCC determined that

3
these

modifications

were

necessary

to

account

for

dramatic

competitive changes in the media marketplace that had taken place
since the rules were promulgated.

The FCC also adopted measures

to encourage market entry by small businesses and new participants
in the broadcasting industry.

See J.A. 101-576; J.A. 577-704.

Respondents filed petitions for review challenging the rules
in the court of appeals.

Industry Petitioners, who represent a

diverse coalition of media owners, intervened in support of the
government.

See Pet. App. 12a.

The Third Circuit found the rules

arbitrary and capricious in substantial part because the FCC had
failed

adequately

to

consider

the

effect

that

the

rule

modifications would have on broadcast station ownership by women
and minorities.

Id. at 1a-56a; see id. at 34a.

The court vacated

and remanded for the agency to “ascertain on record evidence the
likely effect of any rule changes it proposes

* * *

on ownership

by women and minorities, whether through new empirical research or
an in-depth theoretical analysis.”

Id. at 34a.

This Court granted certiorari in both cases to decide whether
the court of appeals was correct in vacating the FCC’s rules on
the ground that it did.
time

for

petitioners

We believe that dividing the argument
between

the

government

and

Industry

Petitioners would be of material assistance to the Court.

The

government has a significant interest in this case because it
directly implicates the validity of federal rules adopted by a

4
federal agency.

Industry Petitioners also have a significant

interest in this case as private parties directly subject to the
ownership

rules,

and

they

can

offer

the

Court

a

distinct

perspective as parties that would benefit from the challenged
modifications to those rules and that have litigated adversely to
the government with respect to prior versions of the rules.

The

government accordingly requests that the Court grant the motion
for divided argument.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
DECEMBER 2020

